No. 20-315

IN THE

Ottpreme Court of the Ettiteb Otateli
JOSE SANTOS SANCHEZ AND SONIA GONZALEZ,

v.

Petitioners,

ALEJANDRO MAYORKAS, SECRETARY, UNITED STATES
DEPARTMENT OF HOMELAND SECURITY, ET AL.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF OF AMERICAN IMMIGRATION
LAWYERS ASSOCIATION, NATIONAL
IMMIGRANT JUSTICE CENTER, AND
AMERICAN FRIENDS SERVICE COMMITTEE
AS AMICI CURIAE IN SUPPORT OF
PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,784 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

e-

i

Colin Casey IRogan
Wilson-Epes Printing Co., Inc.

